OIG Investigative Reports, Two Maryland Women Plead Guilty in Connection with Theft from a D.C. Program that Provides Services to the Blind.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
United States Attorneys Office
Dictrict of Columbia
FOR IMMEDIATE RELEASE
Wednesday, September 16, 2009
Channing D. Phillips
United States Attorney
USAO Public Affairs
(202) 514-6933
www.uddoj.gov/usao/dc
Two Maryland Women Plead Guilty in Connection with Theft from a D.C. Program that Provides Services to the Blind
–They failed to perform a contract with D.C. and embezzled money entrusted to them –
Washington, D.C. - Barbara A. Stevenson-Jones, 70, and her daughter, Pamela
Stevenson, 51, both of Dunwood Crossing Drive, Bowie, Maryland, pleaded guilty today before
the Honorable James Robertson, United States District Judge, to a violation of 18 U.S.C. §
666(a)(1)(A), Theft Concerning Programs Receiving Federal Funds, in connection with theft
from a D.C. government program that assists in the employment of the blind, announced Acting
U.S. Attorney Channing D. Phillips, D.C. Inspector General Charles Willoughby, and U.S.
Department of Education, Acting Inspector General Mary Mitchelson. Sentencing in the case is
scheduled for November 30, 2009.
According to evidence introduced at the plea hearing, from approximately November 1,
2003 until July 13, 2004, Barbara A. Stevenson-Jones and Pamela Stevenson, through their
company, The Wellness and Management Company, Inc., had a contract with the District of
Columbia to manage the Randolph-Sheppard Vending Facilities Program. This program
promotes entrepreneurship and employment for the blind by granting them the opportunity to
operate cafeterias, dry cleaners, snack bars, and gift shops located on federal properties and to
receive income and retirement benefits from vending machines on federal property. The program
is funded by a block grant from the U.S. Department of Education.
The Randolph-Sheppard Program is regulated by the Randolph-Sheppard Act, 20 U.S.C.
§ 107 et seq. Under this Act, each state and the District of Columbia are required to establish a
State Licensing Authority (SLA) to administer the blind vending program. In the District of
Columbia, the SLA is the Department of Human Services, Rehabilitation Services
Administration, which is authorized to contract with a company to perform accounting and
managerial services for the Program. In 2003, the Rehabilitation Services Administration
contracted with the Stevenson’s company, The Wellness and Management Company, Inc., to
administer the Randolph-Sheppard Program in Washington, D.C.
Under the terms of the contract with D.C., the Stevensons company had a number of
responsibilities, including accounting duties, the generation of certain reports and tax forms, and
the collection and distribution of funds to the blind vendors - which were to be held in escrow for
the benefit of the Districts Randolph-Sheppard Vending Facility Program and the blind vendors.
However, shortly after they received the contract, the Stevensons began stealing from the funds
they received on the Programs behalf - including monies given to them by the blind vendors for
repairs and maintenance of equipment - by writing checks to themselves and to each other, by
transferring funds to another bank account they controlled, and by writing checks to their
company. Unaware of the embezzlement that was taking place, the District of Columbia
terminated the contract with the Stevensons for non-performance and demanded a return of the
monies entrusted to them. The Stevensons never returned the money and, ultimately, it was
found that the Stevensons stole approximately $214,026.00 from the program.
At sentencing, each defendant faces up to 10 years incarceration, a fine of $250,000.00,
and an order of restitution. Under the U.S. Sentencing Guidelines, the Stevenson’s are likely to
receive a sentence of 41-51 months incarceration.
In announcing todays guilty pleas, Acting U.S. Attorney Phillips, D.C. Inspector General
Willoughby, and U.S. Department of Education, Acting Inspector General Mitchelson
commended the work of Special Agent Derek Savoy of the D.C. Office of the Inspector General,
Postal Inspector Steven Sultan, U.S. Postal Inspection Service, and Special Agents Margo Hill
and Andrea Todt, of U.S. Department of Education, Office of Inspector General. They also
praised the staff of the U.S. Attorneys Office, including Paralegal Carolyn Cody, Paralegal
Diane Hayes, Financial Analyst Crystal Boodoo, and Assistant U.S. Attorney Sherri L.
Schornstein, who is prosecuting the case.
###
09-234
Top
Printable view
Last Modified: 09/25/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov